            '::
Department of Health and Human Services

               OFFICE
   INSPECTOR GENERAL




     JOBS         SKILLS ASSESSMENT




              :v'
                      Richard P. Kusserow
                      INSPECTOR GENERAL
                           JUNE 1992
                         OFFICE OF INSPECTOR GENERAL


The mission of the Offce of    Inspector General (DIG), as mandated by Public Law 95- 452
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits
investigations , and inspections conducted by three DIG operating components: the Office
of Audit Services , the Offce of Investigations ,   and the Offce of Evaluation   and
Inspections. The OIG also informs the Secretary of HHS of program and management
problems, and recommends courses to correct them.

                               OFFICE OF AUDIT SERVICES


The OIG' s Office of Audit Services (OAS) provides all auditing services for HHS, either
by conducting audits with its own audit resources or by overseeing audit work done by
others. Audits examine the performance of HHS programs and/or its grantees and
contractors in carring out their respective responsibilities and are intended to provide
independent assessments of HHS programs and operations in order to reduce waste, abuse,
and mismanagement and to promote economy and effciency throughout the Department.

                               OFFICE OF INVESTIGATIONS

The OIG' s Office of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and
of unjust enrichment by providers. The investigative efforts of 01 lead to criminal
convictions, administrative sanctions, or civil money penalties. The 01 also oversees State
Medicaid fraud control units which investigate and prosecute fraud and patient abuse in the
Medicaid program.



                       OFFICE OF EVALUATION AND INSPECTIONS

The DIG' s Offce of Evaluation and      Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
Department , the Congress, and the public. The findings and recommendations contained in
these inspection reports generate rapid , accurate , and up- to- date information on the
efficiency, vulnerability, and effectiveness of departmental programs. This report was
prepared in Dallas under the direction of Regional Inspector General Ralph Tunnell and
Deputy Regional Inspector General Chester B. Slaughter. Project staff included:

Dallas                                                 Headquarters
Carol L. Cockrell, 
   Project Leader                  Susan Hardwick
Elsie Chaisson
Susan Rousseau O' Connell


To obtain a copy of this report, call the Dallas Regional Offce at (214) 767- 3310
Department of Health and Human Services

          OFFICE OF

     INSPECTOR GENERAL





   JOBS SKILLS ASSESSMENT





       ''v



     (J         Richard P. Kusserow
                 INSPECTOR GENERAL

        d'a         OEI- 06- 89- 0161O
                       EXECUTIVE SUMMARY
  Purpose

  The purposes of this report are to describe the assessment process and identify useful
  assessment practices in the Job Opportnities and Basic Skills Training Program (JOBS).


  Background

  The primar     goal of the Famly Support Act of 1988 (Public Law 100- 485) is to decrease
  dependency on the Aid to Famlies with Dependent Children (AFC) grant by providing
  education , training and employment opportnities for grantees though the JOBS program.
  States are required to conduct an " initial assessment" of JOBS parcipants ' work readiness
  and employability. The results of this assessment are used to constrct the " employability
  plan " which specifies a permanent employment objective with goals and activities leading
. up   to that objective.



  Federal regulations provide general guidance and few requirements for assessment
  activities , leaving the specifics of form and content to States ' discretion. The regulations
  do require the " initial assessment" be based on the person s famly circumstaces, prior
  work experiences, job skills , and educational and support services needs. Assessment
  methods may include testing, interviews, counseling, and the use of self-assessment
  instrments. If a State tests for literacy, basic skills , aptitudes, and so on , the regulations
  encourage the State to use " nationally recognized , stadardized , or industr- developed"
  instrments in order to avoid inappropriate placements and misspent funds.


 Methodology

 States which have " mature " programs were chosen intentionally, " mature " being defined as
 having a lengthy operating history (e. , having had the regular Work Incentive (W)
 program or WI Demonstration through most of the 1980s) and a track record of offering
 a fairly comprehensive range of services. We selected five States and , with the help of
 State- level JOBS administrators , selected two sites withn each one. We conducted site
 visits in the States of Californa (San Bernardino and Yuba counties), Michigan (Bay and
 Kent counties), Massachusetts (Hampden and Worcester counties), and Nebraska (the
 Southeast Distrct and the Omaha Distrct). In the State of Florida, telephone interviews
 replaced site visits at the Ft. Meyers and Orlando Distrcts. At each site , strctued
 interviews were conducted with the local administrator , two experienced line supervisors
 and two experienced case managers or equivalents.
Conclusions        The Current State of JOBS Skills Assessment

Skils assessment    is stil in an early phase of development. Under very general Federal
guidelines , local welfare agencies are experimenting with diverse approaches to assessing
the job skills of paricipants. A varety of assessment tools, events and practices are being
used within a process on which uniform agreement as to its exact content and sequences is
still lacking. Thus, it would be premature to identify specific tools and practices as the
most effective and efficient , or the most valid and reliable.

Some principles and useful practices are emerging. Even at this early date , it is
possible to make several observations about the nature of assessment in local agencies and
to describe some of its more regularly occurrng stages and events. It is not, for example,
an event which transpires at a single point in time. Rather , assessment is an ongoing
process continuing throughout the parcipant's tenure in the JOBS program. Its content
not limited to skills testing, but encompasses a varety of formal and informal activities
and decisions. Assessment is at the hear of three major functions performed by case
managers for the local agency: 1) identifying the parcipant's employment strengths and
weakesses , 2) tailoring the service strategy to meet the parcipant's needs, and
3) monitoring progress toward the participant's employment goal.

More experience and research are needed. For this report, we have developed a
description of the assessment process from data collected at ten " matue " sites. We have
discussed assessment as several sometimes discrete , sometimes overlapping, stages or sets
of activities: initial assessment , a preliminar labor market sort, extended assessment , the
employabilty plan , and job readiness. We believe this descriptive report provides useful
guidelines for practitioners in the field and wil also be useful to those formulating a
research or evaluation agenda in the area of JOBS skills assessment.


Departental Comments


We are appreciative of comments received from the Administration for Children and
Famlies on the working draft of ths report.
                              ....................................
                    .. .. .. .. .. ... ... ... ... ... ... ..........
                                                                    .. .         .............. ......... .. ..............
                                . . . . . . . .. .. .......,...........
............                                     .......
                                                                       . .. .. .. . .. . . . . . . . . . . . . . .. . . . . .




                 TABLE OF CONTENTS


EXECUTIVE SUMMARY


INTRODUCTION


THE CONTEXT OF JOBS


INITIAL ASSESSMENT ACTIVITIES


PRELIMINARY LABOR MARKET SORT


EXTENDED ASSESSMENT ACTIVITIES


EMPLOYABILITY PIA


JOB READINESS




APPENDIXES

  Appendix A: Literature Sources and Interviews
  Appendix B: Forml and Informl Tools and Practices
  Appendix    Elements of Effective Assessment
  Appendix D: Employabilty Plan as a Documentation Device
  Appendix E: Checklist for Determining Job Readiness
                                    INTRODUCTION

Purpose

The purposes of this report are to describe the assessment process and identify useful
practices in the Job Opportunities and Basic Skills Training Program (JOBS).


Background

       The Federal Context for the JOBS Program

The primar goal of the Famly Support Act is to increase famly self-suffciency and to
decrease dependency on the Aid to Families with Dependent Children (AFC) grant by
providing AFDC recipients the opportunities to upgrade their work skills or lear new
skills as paricipants in the JOBS program.

Title II of the Famly Support Act (Pblic Law 100- 485) establishes the JOBS program
under title IV- F of the Social Security Act. ! JOBS is the operatig welfare- to-work
program in the Deparment of Health and Human Services , replacing and expandig
current authority for education , training, and work programs in title IV - A (AFC) and title
IV - C (Work Incentive (WIN) program and WIN Demonstration) of the Social Security
Act.

 States were required to implement the program by October 1 , 1990. By October 1, 1992,
 the program must be available on a statewide basis where feasible , accounting for the
 number of eligible parcipants , the condition of the local economy, and other relevant
 factors. The JOBS program in every State must include a varety of educational activities,
job skills training, work experiences, job readiness activities, job development and job
placement activities , as well as support services (e. , transporttion and child care). The
 State s IV- A agency (welfare agency) has the responsibilty for the admstration , or the
 supervision of the administration , of the JOBS program and may contract out varous
program activities.

In regard to assessment activities , States are required to conduct an " initial assessment" of
JOBS parcipants ' work readiness and employability. Federal regulations provide general
guidance and few requirements for the " initial assessment " allowing States to determne
specifics of form and content. The regulations do require the initial assessment to account
for the paricipant's family circumstances , prior work experiences , current job skills , and



  Federal Register ,   October 13 , 1989, Par II , DHHSIFSA , 45 CFR Par 205   et seq. .
 educational and support services needs. Assessment methods may include testing,

 interviews , counseling, and the use of self-assessment instruments If a State tests for

 literacy, basic skills , aptitudes , etc. , the regulations encourage the State to use " nationally

recognized , standardized , or industr- developed" instrments before placing JOBS

paricipants in order to avoid inappropriate placements and misspent funds.   No time
period for completing the assessment is specified except that it must be done " withn                              a
reasonable time frame prior to paricipation (in the JOBS program). ,,2

The regulations also require the creation of an " employabilty                        plan "   based on the data
collected from initial assessment      activities. The employability plan is the action                    plan        for
the parcipant. It must state a permanent employment objective or outcome , describe the
activities the paricipant wil complete (e. , complete high school , go though nurse aide
training), and specify any support services to be provided. It must also account for the
participant's preferences and needs to the extent allowed by available resources and local
job opportunities. The regulations encourage , but do not require , States to include a
schedule of activities necessar to achieve employment by a specified date.


Scope

For ths report ,     we focus on overall assessment practices inside the local agency and do not
review specific assessment activities and tools in the education, job training, and the
individual or group job search component.


Methodology

       Learning About Assessment

Given the tremendous flexibility in the Federal regulations , we anticipated that States and
localties would be faily diverse in conceptualizing, settng up and managing the
assessment of participants ' job skills. In order for us to fill in the conceptual gap between
the broad policy statements in the regulations and the actual implementation of assessment
in local agencies , we performed four tasks.

First , we reviewed current literature on welfare- to-work programs , federally supported
training programs , assessment-related activities in these programs, and literature on skills
testing. 3 Relative to the JOBS program , we began to understad assessment as:




  Federal Register   ibid. p. 42178.

3 See APPENDIX A for a list of sources.
        an ongoing process rather than intermittent event;
        a complex process , comprised of formal and informal aspects , involving all levels
        of agency staff;
        the core activities in thee major functions performed by JOBS case managers:
         1) identifying the paricipant's employment strengths and weakesses , 2) taloring
        the service strategy to meet the parcipant's needs , and 3) monitoring progress
        toward the employment goal;
        influenced by factors internal and external to JOBS. Assessment is a subsystem
        within other systems - JOBS program , local IV- A agency, local community, the
        State , and the Federal government.

From this task a working definition of assessment developed. We view assessment as
much more than " skills testing " (generally considered to be a formal event in which one or
more standardized or teacher-constrcted tests are administered), and more than an initial
interview with a case manager who collects baseline information on the paricipant. Both
of these events are included in a broader concept of               the formal and informal
                                                            assessment:

evaluative processes, decisions and events occurring within the agency from the
partiipant' s entrance into the JOBS program to herlhis exit from the program.
Second , we talked with some program and assessment experts inside and outside the
Federal government to verify our initial impressions about assessment and to discuss their
ideas , viewpoints and experiences. s We asked these experts to identify what they consider
as essential elements of effective or useful assessment, paricularly in the context of
welfare-to-work programs.



Third , from the literature review and the discussions with experts we developed an
inventory of what the experts regard as essential elements of effective assessment.
Finally, we used this inventory to help us identify useful assessment practices.

      Sample Selectin and Data         Collection

Since the focus of this report is describing assessment and identifying useful assessment
practices , we decided to choose States having " mature " welfare- to-work programs.
 Mature " is defined as having a lengthy operating history (e. g., having had
Demonstration or regular WI thoughout most of the 1980s) and a track record of
offering fairly comprehensive services. We reasoned that focusing on States which had



4 See APPENDIX B for an explanation of fonnal and infonnal assessment tools and practices vis-a­
                                                                                                   vis the

   JOBS program.

5 For a list of interviewees , see APPENDIX A.

6 See APPENDIX C for a listing of the elements of effective assessment.
already laid the groundwork for the JOBS program would enable us to immediately benefit
from their experiences in integrating assessment into the program.

In a previous Office of Inspector General study on JOBS implementation practices , the
 mature " criterion was used to select a purposive sample of eight States , diverse in their
program strctures , demographic factors , economic conditions and geographical location.
We selected five States from ths eight- State sample.

In each selected State , we asked the JOBS administrator to select two local welfare
agencies (each in a different county) which had a lengthy operating history and excelled in
most or all JOBS program activities , especially assessment. We conducted site visits in
the States of California (San Bernardino and Yuba counties), Michigan (Bay and Kent
counties), Massachusetts (Hampden and Worcester counties), and Nebraska (the Southeast
District and the Omaha Distrct). In the State of Florida , telephone contact replaced site
visits at the Ft. Meyers and Orlando district offices.

At each site , we conducted strctured interviews with the local administrator, two
experienced line supervisors, and two experienced case managers or equivalents. Data
collection activities occurred in September and October of 1990.

We also reviewed copies of available State and site-specific policies, technical assistance
and procedures guides regarding assessment; formal and informal interagency agreements
governing the provision of assessment services; current JOBS program component and
paricipant flow chars; any studies or formal evaluations of the assessment system; and
participation/outcome data.




7 " Working Toward JOBS, " OEI- 12- 90- 00960 , June 1990.
                  THE CONTEXT OF JOBS

The nature and extent of assessment activities inside the agency are influenced by a varety
of factors internal and external to the agency. The interaction within and between internal
and external factors creates a complex , dynamic environment for the JOBS program and
the assessment process.

The External Environment

Federal laws , regulations and guidelines set the stage for the JOBS program and
assessment activities. Another set of factors     the health of State , regional and local
economies , and the politics surrounding welfare programs and their funding        constitutes
the infrastructure of the external environment. Availability, coordination and delivery of
education , employment and job training services at the State and local levels are other
factors influencing the nature and extent of the JOBS program and assessment activities.

      Local and Regional Economic Conditions Form the Infrastructure

As States and local agencies continue implementing the JOBS program and assessment
activities , some external factors are more likely to affect decision-makng than other
factors. Because of the very nature of the program , local and regional economic
conditions greatly influence the degree of its success. The strategies employed to manage
these sets of conditions var from one local agency to another. For example , given the
economic conditions of seasonal work and limited diversity in community or regional
industres , a local agency might choose the strategy of implementing a more " streamined"
JOBS program and assessment process (i. , very limited use of formal assessment
activities and staff time). In a few Florida locales , the majority of JOBS parcipants are
diected into jobs supporting the seasonal tourism industr, e. , food service , maitenance
and repair , domestic service, clerical and sales jobs.

Another example of economic conditions influencing decisions about the JOBS program
and the extent of assessment activities is the case of Yuba County, Californa. The county
has among the highest unemployment (=14%) and povert (=16%) rates in the State.
Although seasonal agrcultural work is available , there are also available positions from
year-round employers in retail sales, service industres and government. Rather than focus
on seasonal jobs , the administrator has chosen the strategy of increasing the
competitiveness of JOBS paricipants for the scarce , above-minimum-wage jobs in the
area. For this welfare agency, the strategy has had the effect of emphasizing the
importce of the assessment process in detecting the skill proficiencies and deficiencies of
paricipants, identifying and dealing with barers to employment , and tracking progress as
paricipants prepare for employment. The agency s commitment to this parcular strategy
                      , "    , "




of dealing with rather adverse economic conditions is reflected in the allocation of two
staff positions devoted to formal assessment of JOBS paricipants.

       Federal and Stae Commitment and Financial Support Are Crucial

Along with economic circumstances, the degree of Federal and State commtment and
financial support for welfare- to-work programs also strongly affects the JOBS program and
skills assessment. Theoretically, the JOBS program has immense potential for helping
individuals overcome barers generated by poverty and for giving communities incentives
to offer opportunities. Providing job training and educational opportunities to welfare
recipients now in order to recoup the investment later in the form of more productive
taxpaying citizens makes sense to nearly everyone. But the investment in a new program
with such an ambitious goal has to be fairly sizable in the fIrst few years in order to
receive significant returns in the future. The Federal governent and most State and
local governments are currently in a cycle of fiscal belt- tightening which is likely to last
for years.  Thus , if JOBS is to realize its potential , efficient use of limted resources and
a long- term commitment to the program at all levels of governent are necessar.

At the State level , Californa s GAIN and Massachusetts ' ET Choices, prototypes for
JOBS, are examples of two " mature " welfare- to-work programs which have received a high
degree of commitment and financial support from their State legislatures years before
JOBS was created. In contrast , some States ' legislatures have treated welfare- to-work
programs with neglect and minimal funding. The priorities of State- level decision makers
often are mirrored at the local level in the willngness of local businesses , and education
and training facilities to accommodate welfare recipients as new employees, students and
trainees.

The Internal Environment

The quality and extent of assessment activities are also affected by a varety of factors
inside the local agency. These include budget constraints, the degree of staf commtment
to implement JOBS and effective assessment , having case management and specialed
JOBS units , and access to an information storage , retreval and processing system.

      Agency Commitment to JOBS Is Importnt

Among all the agency staffs we interviewed , we found a commendably high degree of



8 Connors , Kathleen A.   The Gathering Storm: Welfare in a Depressed Economy, Public Welfare , Winter
   1991; Sherwood , Kay E. and David A. Long, " JOBS Implementation in an Uncenain Environment Public
   Welfare , Winter 1991.

9 Hass, Lawrence J.         Spreading the Pain   National Journal ,   June 22 ,   1991.
 commitment to JOBS and to the use of every community resource      in meeting the goals
and challenges of the program. The administrators, supervisors and case managers who
were also supervisors or caseworkers during the now defunct WI program (most of our
interviewees) viewed the JOBS program as a substative change for the better. All of
them had witnessed positive changes in paricipants ' lives as a result of the program
which , in turn , strengthened their commitment. However , they were concerned that the
JOBS program and their work with recipients were being thwared by shrnkng budgets
for support services (e. , child care and transporttion) and other contracted services , and
by heavy caseloads (the average is =100 JOBS clients per case manager), resulting in less
time to spend with each paricipant.

        Case Management and Specialized JOBS Units Strengthen Program Performance

Staff concerns about tight budgets and heavy caseloads seemed to be mitigated somewhat
by two staff arangements working in tandem: a specialized JOBS unit and case
management. Not all the agencies we visited had organized a special JOBS unit, and not
all had case management. In agencies which had both , the arangement seemed to promote
consistency in JOBS policy and procedures , case managers who were efficient information
and community services specialists , and consistency and continuity of paricipants ' contacts
with the agency.



       A Data Processing System Saves Time and Effort for All Agency Staff

Adequate data collection and information synthesis appeared to be vital for identifying,
documenting and managing parcipants ' employment barers and strengths. We noted
that most local agencies in our sample had installed data processing systems to help case
managers and supervisors organize the bulk of the information about parcipants.
Agencies with more basic systems could produce " caned" reports (e. , quarerly reports
which have a fixed format      the same varables and the same data manpulations for
every report), while agencies with more sophisticated (and more expensive) systems could
produce reports talored to fit the parcular needs of different staf members.

A user- friendly, readily available data processing system seemed to be a valuable tool for
saving case managers , supervisors and administrators significant time and effort in
compiling and aggregating data about parcipants. It also greatly assisted in monitoring
parcipants ' progress through JOBS components and activities , cutting down on the " paper
shuffle. "
      INITIAL ASSESSMENT ACTIVITIES

Typically, within the week after the JOBS orientation session , the parcipant met with the
case manager to begin the           initial       assessment. Using a mixture of formal and informal
tools and practices, the case manager collected and examined a body of data about the
participant in order to judge the extent of "job               readiness. " This included assessing
whether the paricipant had adequate basic education skills (especially language and math
skills) to satisfy potential employers ' requirements; the extent to which the parcipant's
vocational interests and aptitudes , employment history, work experiences and current skills
matched labor market demand; whether likely jobs would adequately support the
parcipant's family; whether                   the paricipant had appropriate work attitudes and behavior;
and the type and extent of support services needed.

Case Managers Perform Critical Tasks

We found the case manager s principal tasks during the initial assessment were 1) to
identify and document barers to employability, as well as the individual' s parcular
strengths, 2) to decide which barers can be managed withn the strctures of agency
resources and the individual's life circumstances, and 3) to create a workable strategy of
agency service delivery and parcipation by the individual. Withn the operational
framework of these principal tasks , the case managers performed several ongoing roles as
needed , such as:


              CASE MANAGER' S ROLES VIS-           VIS THE PARTICIPANT DURG THE INITL ASSESSMENT

               Establishing a " parership " with the parcipant, and ensuring the individual knows the rules

               of the parership, i. , the rights and the responsibilities of parcipation in the program;

               Giving the parcipant as much control as possible over decisions afecting herlhs life;

               Building the parcipant s self-confidence and urging herlhm to make the most of the

               opportunities offered by the program;

               Makng the paricipant aware of the skills and employabilty strengths shele aleady has;

               Discussing employment possibilties with the parcipant while considerig the parcipant

               expressed vocational interests and labor market demands;

               Encouraging the paricipant to set employment goals which are realstic, i. e., appropriate to

               the parcipant s abilities and famly financial responsibilties;

               Requesting the parcipant to investigate specific vocational choices before deciding on

               education and/or work training goals and activities in the parcipant s employabilty plan;

               Working with the parcipant to determne support services;

               Creating the employability plan with the parcipant in the spirt of the JOBS parership.




In performng these tasks , the case manager built crucial rapport with parcipants , helping
to anchor their commtment to the program and motivating them to complete it.
Identifying Barriers to Employment Is Central to the Initil Assessment

The case manager s first major task in the assessment process was identifying and
documenting barrers to employability. The JOBS program targets AFDC grantees, aged
16 to 59, who historically have had diffculty gaining employment. Included are those
with a history of welfare receipt , parents under the age of 24 without a high school
diploma or without current work experience , and adult famly members whose youngest
dependent is within two years of being ineligible for AFDC. These recipients generally
experience multiple barers to employment involving varous combinations of individual
and community- level problems as summarzed below.


                                        BARRRS TO EMPLOYABILIT

         Lack of     education and communication skills (including language barers) to meet employers

         requirements;

         Lack of     training CUlTent or transferable iob skills work experience , or work maturity skills

         meet employers ' requirements;

         Self-esteem problems, lack of           self-confidence in the abilty to lear and adapt to new situations;

         Lack of access to safe and affordable 
         public transporttion in the community;
         Lack of a pennanent address and/or lack of adequate , safe and affordable community            housing
         Lack of adequate , safe and affordable          child care in the community;
         Acute and chronic    physical and menta health problems       due to inadequate nutrtion    , drg
         addiction , stress, lack of access to adequate health care in the community, etc.
         Problems with the 
   criminal iustice system and having a crinal record;
         Discrimination by employers , health care facilities , landlords and others in the community on
         the basis of being poor , old , female, black or Hispanic, disabled , having a crinal record;
         Famly circumstaces such as the presence of violence and abuse in the home, chaotic or crisis-
         oriented famly life , lack of parenting skills and knowledge , lack of chid support from absent
         parents, carng for special-needs children , or sick or disabled adults in the home.




Because some barrers are so deeply-rooted in the community, famly or individual, they
have more severe , enduring consequences for the long- term employabilty of the poor.
Barers such as years of substandard public education , the presence of violence and abuse
in the home , chronic health problems, and carng for an incapacitated child or adult in the
home decrease a person s chances for maintaining employment. For these tenacious
barers , the JOBS program is not a panacea , although it can ameliorate the effects of some
barers in the lives of individuals though its cumulative impact. For the less difficult
barers , JOBS does offer assistance and opportunities to diminish their effects.
Tailoring Service Strategies for Special              Target Groups Has Intended and
Unintended Benefits

The case manager s second and third tasks , determning affordable and workable service
strategies , can be diffcult for paricipants with multiple barers. In some instaces, these
tasks have been made less arduous by recognizing that distinct groups of AFDC grantees
each have their own cluster of barers requiring a fairly predictable aray of services.
Young parents are an apt ilustration. Because of their inexperience in the world of work
parenting and adult relationships , the strategy for young parents (under the age of 24)
typically involves a combination of the following services.

                                SERVICE STRATEGY FOR YOUNG PARENT

         Assistace in obtaining child support from absent parents;

         Treatment for a drg or alcohol addiction, if needed;

         Finishing the high school degree;

         Vocational interests and aptitude testing, and career counseling;

         Obtaning child care and transporttion assistace;

         Vocational education and/or job training;

         Receiving instrction in social skills and instrmenta tasks, e. g., how to parent, household

         management and budgeting, increasing self-esteem and self-confidence, realstic plang and

         goal settng, problem solving, managing stress, building and maintaning heathy relationships

         with adults , work maturity skills and other pre-employment prepartion.




JOBS programs in States as diverse as Nebraska and Massachusetts have made it one of
their priorities to address the specific cluster of barers faced by AFDC recipients who are
young parents. They have contracted to develop and implement special programs such as
Operation Bridge in the Omaha distrct (NE), the Young Parent Program in the Southeast
distrct (N), and the Pregnant and Parenting Youth Program in Hampden County (MA).
These programs usually furnished individual and group instrction and counseling for
several weeks on a varety of problems and issues faced by young parents and workers.
Though case notes, formal reports, telephone contact and in-person meetings, contractors
provided input to case managers about identified barers, progress made by each
parcipant, and any recommendations for furter action or specific services.


Beyond the intended, formal purposes of specialized service programs for taget groups,
some unintended benefits also may occur as a result of these programs. For example,
some Nebraska staff members noted that a positive by- product for parcipants who
attended meetings for young parents was their furter empowerment as a result of creating
their own information networks, informal support groups, and friendships. These
informal groups tended to acquire a life of their own, enduring beyond the confnes of               the
program.
 Informal groups/networks can provide

valuable support for parents who are           Informal support groups can reinforce JOBS

                                               messges by convincing members to adopt certin

finishing the high school degree , for         values and expectations, such as:

those tang vocational education
courses , and for those in a job training      VALVES              EXPECTATIONS FOR BEHAVIOR
regimen or looking for work. Very
often , these groups can help members          Education            get the GED at least
develop a feeling of community or              Work                 get training           learn as many
belonging with persons similarly                                  skils as time permits          secure

circumstanced and struggling for a                                the best available job         do the

better life. They also may strengthen                             best you can and always strive
certain constrctive ideas and behavior                            for improvement
and can help members overcome a
                                              Self-suffciency       don t depend on government
sense of alienation from the
                                                                  programs for financial support ­
mainstream. (See text box.                                        be personally responsible for

                                                                  supporting your family




Although the Initil Assessment Is Usually an In- House Activity, Some Agencies
Utilize Contractors

Although case managers in most agencies performed the initial assessment in- house, some
 agencies contracted with a business or an outside agency for these services. For example
the local agency in Kent County, Michigan , contracted with the Career Development
Center to provide initial assessment activities. In the initial assessment , a battery of tests
was administered to all paricipants , such as the T ABE (Tests of Adult Basic Education),
specially normed for adults, used by the Center to measure reading and math skills; the
GATB (General Aptitude Test Battery) for general learng abilty and dexterity; the Hall
Occupational Orientation Inventory for value priorities; USES Interest Inventory for work
interests; and explorations of the individual' s current skills, employment barers, personal
strengths , and career goals. Results were reported to the agency and to a ITP A (Job
Traing Parership Act) vocational counselor who then worked with the JOBS parcipant
to develop an employabilty plan.

Most Agencies Limit or Omit Formal Testing During the Initil Assessment

In contrast to Kent County, Michigan , other local agencies either elected not to conduct
formal testing in the initial assessment , or they did so to a lesser extent by choice or by
requirement. The State of California , for example , required counties to administer a
reading test and a math test from the criterion-referenced CASAS (Comprehensive Adult
Student Assessment System). In Yuba and San Bernardino counties , CASAS tests were
administered and scored during the JOBS orientation session. Test results added
 objective " measurements to the body of information collected about the parcipant , and

were subsequently used as bench marks to make decisions and set short- term goals.


If the score for each test was above 215 and the paricipant had a high school diploma or
had worked in the last two years , the Californa case manager usually directed the
paricipant to the job search component. If scores were at or below 215, the case manager
generally recommended remediation , pursuing the General Education Degree (GED) or
takng an ESL course (English as a second language) before sending paricipants to the job
search component. Paricipants who were jobless after completing the activities in the job
search component (the preliminary labor market sort) were given an extended
assessment , and a more or less permanent plan of employability was then created.

Formal Testing During the Initil               Assessment Has Advantages and Disadvantages

The chief advantage of formal testing in the initial assessment stage is the inclusion of
 objective " standards in the evaluation of the parcipant's literacy, learng ability, work
interests and skills. By using the test results along with other available information , the
case manager may generate more informed and timely decisions about the parcipant.
Another advantage is that some formal testing at this point may eliminate the need for an
extended assessment later. If we operate on the principle that decisions made about the
parcipant in the initial assessment should be based on more information rather than less,
then it is useful to do at least some formal testing at this point.

On the other hand , formal testing in the initial assessment can be costly in several ways.
Tests usually must be purchased. They must be administered under certn conditions,
    , a moderately spacious , fairly quiet , well- lighted and ventilated area , in order to
control for extraneous factors. Many norm-referenced tests and criterion-referenced tests
must be administered , scored and/or interpreted by specially trained people. In addition,
several caveats must be remembered in using test results, e. , avoiding the temptation to
make decisions about a parcipant based almost solely on test results, and realzing that
tests are not always accurate and reliable indicators of future performance. lo As a rule
then , local agencies relegated most or all of the formal testing to the extended assessment
stage in which some paricipants were tested on an " as needed" basis by outside providers
qualified to administer and interpret test results.




10 Auspon , Patrcia and Kay
                              Sherwood,   Assessing JOBS Parcipants: Issues and Tradeoffs , New York:
   Manpower Demonstration Research Corpration ,       1992x.
The Conclusion of Initil Assessment Activities

At the end of the initial assessment stage , either a temporar or permanent employability
plan was created to guide the diverse paths of JOBS paricipants. Some paricipants went
on to an extended assessment. Others began education component activities by pursuing
education remediation , an ESL course , the GED certficate , an Associate s degree or
series of vocational education courses. Some paricipants entered the job training
component. Certain paricipants were directed into a specialized service program
address specific employment barers. Parcipants judged as "job ready " were sent to the
job search component (a " labor market sort
                                                which we call the preliminary labor
Other agencies used an assessment- like practice ,
market sort , wherein all or most paricipants were required to go though an individual
group job search immediately upon entering the JOBS program , sometimes without an
initial meeting with a case manager. Only parcipants remaining jobless after completing
these activities were allowed to take par in other JOBS components. The advantages and
disadvantages of this paricular labor market sort are discussed next.
  THE PRELIMINARY LABOR MARKET SORT

We found that the preliminar labor market sort (our term) to be a mandatory, front-end
job search which sifts those who are "job ready " from those who are not. In agencies
employing ths practice , all or most JOBS parcipants are given job-search training and are
required to search for employment as either their first formal activity after an initial
meeting with a case manager , or their second formal activity after completing a remedial
course in adult basic education , an ESL course or the GED. Varously named Job Club
Job Workshop, Group (or Individual) Job Search , and so on , it functions as an assessment
practice by testing parcipants ' current abilities and skills against labor market demand
very soon after their entrance into the JOBS program.

The Preliminary Sort Is an Assessment Practice Having Advantages and
Disadvantages for the Agency and Partcipants

Because of its mandatory nature and early placement in JOBS, some controversy surounds
ths fitering technique. Similar to its operation in the former welfare- to-work program
(W), the preliminar sort works to the advantage of the local agency and "job ready
parcipants having work skills competitive enough to ear wages above the minimum.
However, it seems to further disadvantage those who are not "job ready " and those with
less competitive work skills    the most needy of all JOBS paricipants. The advantages
and disadvantages are as follows.


                        ADVANTAGES OF THE PRELIMINARY LABOR MARKT SORT

     To the benefit of the local agency, it has the potential of puttng a signifcant proporton of
     parcipants to work immedately. To the extent that ths occur , it can initialy (1) decreae the
     program costs of investing in education and training for those JOBS parcipants who fmd jobs,
     (2) decrease or eliminate AFC payments for those same parcipants, and (3) increae the " success
     rate " of the JOBS Progr.

     For parcipants who get jobs, it has the potential of increasing self-esteem , reinforcing the positive
     aspects of being self-sufficient, thus mitigating the " welfare stigma.

     It educates all or most JOBS parcipants ealy in the progr in tehniques        for fmding a job and
     getting hired , and in the atttudes and behaviors valued by employers.
                                                    - "                                 g.




                                                                 SORT
                     DISADVANTAGES OF THE PRELIMARY LABOR MARKET


    The initial success of the preliminar sort in achieving job placements may be offset by the extent
    to which the " revolving- door " syndrome (or recidivism) exists. Those who are not adequately
                                               g., parcipants who obtan minimum- wage service jobs
    prepared to compete in the marketplace (e.
                                                    program at a later date.
    as a result of the sort) may return to the JOBS

     One of the effects of this early labor market sort is to even out or reduce the number of JOBS
     parcipants being served 
  at anyone time. The caveat for the agency, however, is that expenditures
     may be reduced over the short term, but not necessarly over the long term.

                         early job seach may mean that receiving needed services
                                                                                 , e.        fuer education
     Going though ths
     and vocational training, is delayed for weeks or months.

     For those who fail the preliminar sort, the experience can have negative psychological
     consequences. It may reinforce a sense of failure about gettng   and keeping a job, and a sense of
                                                         It doesn t matter how hard I tr, I don t get
     resignation about being dependent on welfare
     anywhere. " In turn, this sense of failure can decrease motivation to paricipate in the program.




                                                                    parcipants who are not
An alternative for avoiding the disadvantages of this practice for
job ready is to taget this device to volunteers and those exhibiting  a high degree of job
                                                                  playa critical role in
 readiness. The case  manager   and/or employment   expert would
                                                                 considering the body of
 determning the job readiness of new parcipants by carefully
 information collected during the initial assessment. For the agency,  advantages of
                                                                    parcipants who go
 preselection might translate into higher placement rates for those
though the preliminar sort.

Paricipants who were jobless after the conclusion of these early job search activities either
completed initial assessment activities with their case manager and/or were given an

extended assessment , after which a more or less permanent employabilty plan was

created.

         EXTENDED ASSESSMENT ACTIVITIES

Typical Extended Assessment Activities

Formal testing tools , i. , mostly norm-referenced (or stadardized) and some criterion-
referenced tests , were used extensively by assessment providers , but not to the exclusion of
informal assessment tools and practices. Based upon the formal and informal assessment
results , providers recommended a range of jobs or , more often, specified two or more jobs
on which the parcipant should  concentrate herlhis future job search. Providers usually
furnished case managers with a written summar of each paricipant's extended assessment
activities and experiences withn 10- 15 working days after clients were assigned to
extended assessment.

A Subset of Partcipants         Usually Those With Serious Employability Problems-
Receives Extended Assessment Services

Paricipants engaged in extended assessment due to one of two     conditions. One condition
was a high degree of uncertainty regarding the partcipant s achievement levels, aptitudes
occupational interest areas, and/or having an iregular, par-time or nonexistent work
history. The other condition was that the parcipant had failed to satisfactorily accomplish
activities in one or more JOBS components. Failure to secure employment durig the
preliminar labor market sort or subsequent labor market sorts, and the failure to perform
acceptably in an education or a training component activity, often trggered the agency to
send the paricipant for additional assessment or a tota reassessment. Hence , only a subset
of paricipants received furter testing, a subset which predictably experienced severe
employment bariers. As one supervisor in Massachusetts stated, providers of extended
assessment services must expect and be equipped to deal with these problems because
 there is no reservoir of ' problem- less ' paricipants.

Most Agencies Contract for      Extended Assessment      Services

Among agencies using extended assessment as par of their JOBS programs , most preferred
to rely on the competence and experience of outside providers to deliver these services
rather than conduct them in- house. Agencies hired providers of extended assessment
services who met their criteria for effective service delivery, usually some varation of the
thee " s: expertise , experience and economy. Thus , agencies often utilized the
assessment services offered by JTP A and local community colleges because of their long
experience with vocational education and job training programs , their expertse in assessing
job ski lls, and their faily reasonable costs for providing these services.
Career Research by Partcipants Builds Skills and Yields Other Benefits
As one of the paricipant's final activities in the extended assessment, we found providers
usually requested each client to research several careers pinpointed by assessment results.
Beyond the obvious goal of educating the paricipant about these paricular careers , the
process of researching career information seemed to yield other benefits for the paricipant.
We inferred the participant gained (or sharened) some very valuable skills such as
learning to use a librar and its resources, learnng to access computerized career
infonnation in " canned" databases (e. , information similar to that contained in the
Deparment of Labor Dictionar of Occupational Titles has been packaged in computer
programs for easy access to users), and learng to summarze and synthesize information.
This exercise also seemed to give the parcipant a feeling of more control over some
choices and decisions. While it required somewhat more time than other activities, the
skills acquired and the reinforcement of the value of self-sufficiency made it time well-
spent.

Providers Are Expected to "Match" the Case                   Manager in Knowledge and              Skills

When asked to talk about the keys and problems to successful coordination with providers
of extended assessment services as well as lessons they have leared , agency stafs offered
what amounted to a list of qualifications their providers either do have or should have in
order to work effectively with agency personnel and JOBS parcipants. We found that
assessment providers did much more than test and interpret results. More often than not
many of the roles and tasks of the provider staff matched those of agency case managers.
The two greatest differences were that the provider staf works with parcipants on a more
time- limited basis , and their main focus was assessment.

Below is a list of qualifications which agency staffs said their assessment providers
currently demonstrate or should demonstrate. To ilustrate the convergence of knowledge
tasks and skills between assessment providers and agency case managers, providers
qualifications which " match" case managers ' roles and tasks are identified by asterisks (*


                                           PROFESSIONAL SKILLS


   The assessment provider staff must have:
      professional credentials , knowledge and experience in setting up assessment processes, using
      assessment tools, and evaluating test results;
      the knowledge and flexibility to operate an assessment process in which parcipants are assured
      they cannot fail    the " sense of failure is the greatest barer " for parcipants to overcome;
      a testing protocol in which a varety of tests are administered (e. , aptitudes, achievement
      career/vocational interests), assessment is geared to the specifics of the local labor market, and
      overtesting and using tests known to be biased (e. , GATB) are avoided.
                                       CLIENT -ORINTED SKILLS


 The assessment provider staff must have:

    extensive knowledge about the poor and their life circumstaces;

    realistic expectations of what parcipants can accomplish during their brief tenure in the program;
    empathy and sensitivity to parcipants ' nees and problems;
    the skills to effectively communicate and work with parcipants;

                                                                            parcipant as feasible;

    the ability to personalze assessment and spend as much time with each
    the skills to build paricipants ' self-esteem;                                              necessar

    the flexibility to experiment with new ideas and ways of doing things, makng changes as 

    to better accommodate paricipants ' needs.





                    KNOWLEDGE ABOUT THE PROGRAM AND          COMM RESOURCES
 The assessment provider staff must have:

    knowledge about the JOBS program s philosophy, policy and procedures, and agency assessment;

    knowledge about the roles, responsibilities and expectations of both the assessment expert and
     the agency case manager;
                                                                                      parcipants,
     knowledge about , and productive contacts with, coinunity
                                                               resources helpful to
     the local labor market and employment prospects.




                        COMMCATION SKILLS FOR WORKING WIH AGENCY STAF

  The assessment provider staff must have:
                                                                         parcipants;

     regular contact with agency sta, giving timely progress reports on 
                assessment-
     the skills to work with the case manager to iron out parcipant-related problems and
     related issues;

                                                                   report for agency sta which
      the ability to wrte timely, clea, concise, and comprehensive
      summarze parcipants ' assessment experiences and recommendations.



Because agency case managers and assessment experts share many roles and tasks, it
                                                                           stafs. The

makes sense for agencies and providers to conduct joint training for their     procedures,
topics of joint training sessions could include: provider and agency policies,
                                                                           staf;
and assessment processes; responsibilties of case managers and provider
philosophical orientation to JOBS and the assessment process;
                                                                understading   the needs of
                                , maintaning             realistic expectations   of parcipants and
varous paricipant subgroups; and

craftng practical strategies for handling barers.
                                                  );




Extended Assessment Can Be Done In- House

The agency in Yuba County, California , offered an alternative to the usual practice of
hiring an outside provider of extended assessment. In March of 1989, the agency
streamlined the externally- located extended assessment process , originally designed and
implemented by Yuba College , and instituted the current in- house process with two full-
time assessment counselors. Both counselors had training
                                                
             and experience in assessment
prior to being hired at the agency, one at the local community     college and the other at the
local ITP A offce. Like their external counterpars , the assessment counselors were
expected to have the same knowledge bases and skills as noted above , and          to perform
                                                                               ll to all who
several major tasks for the agency: 1) to administer several formal tests
failed the preliminar labor market sort , 2) to interpret test results , 3) to guide paricipants
in selecting thee career choices based on interest, test results and labor market demand
4) to prepare an assessment profie of each client, and 5) to work with each paricipant and
respective case manager in recommending courses of action.

Another factor playing an important par   in the success of Yuba County s in- house
extended assessment was the leadership of the agency administrator. The admnistrator
maintained an open- door policy, encouraging staf to talk about
                                                                 what they thnk is working
and what is not. The administrator viewed change as a fact of life
                                                                   , somethng to be
welcomed when it improves the lives of paricipants and makes the work of the staff more
efficient and rewarding. In fact, the agency had a reputation beyond the county lies for
 practicing innovation " and regularly was asked for advice by other counties.




 11
      Admnistered tests in Yuba County         house extended assessment process are:
                                              s in-

      . Career Abilty Placement Survey       (CAPS)        meaures abilty in eight areas (mechancal reasoning,
                                                                                                         spee and
      spatial relations, verbal reasoning, numerical ability, language usage, word knowledge, perceptual
      accuracy, manual speed and dexterity);
      . Career Occupational Preference Survey           (COPS)       measures degree of interest in 14 clusters of
      occupations;
         APTICOM has thee test batteries           Interest Battery measures the degree of interest in perfonnng
      varous tasks; 
   Aptitude Battery   measures aptitudes in ten areas of functioning (e. , general learing ability,
      verbal aptitude, numerical aptitude , etc. Education Skills Battery measures competency in reading and
      mathematics;
       . Myers- Briggs is a personality type indicator and measures tendencies in eight modes of perception and
      judgment. Approximately half of the parcipants are administered this test. (Only one of the assessment
       counselors uses the Myers-Briggs.
  12 The State has supported innovation here and has summoned the agency to do several special projects and
      pilot programs. One of these is the creation of an automated infonnation system , GAI Employment
      Management System (GEMS). A case manager worked with Digita Equipment Corporation and Price-
      Waterhouse to set up the system which came on-line in September of 1988. Twenty of Calorna
                                                                                                    s fifty-


      four counties are now in the GEMS consortum.
   ..




        Advantages of In- House         Extended Assessment

                                                                        process inside the
For Yuba County, the advantages of placing the extended assessment
agency were unmatched by external assessment providers:

         the agency had direct control over the process    changes or modifications in the
         form or content of the extended assessment could be effected immediately
         tremendous   esprit de corpsand cooperation existed between case managers and
         counselors
                                                                           parcipant during
         a significant amount of personal attention could be given to each
          assessment and afterwards
          counselors were available to case managers and paricipants without delay for
          consultations and problem solving
          after the extended assessment , the counselors retained some responsibilty for
          guiding the progress of parcipants thoughout their tenure in the program.
                                                                                        house
The high degree of satisfaction expressed by all the agency interviewees with the in-
assessment process ("(Every agency should) have one like ours!" ) and the negligible
number of paricipants who were reassessed spoke well for the efficacy of the assessment
process. It also affrmed one counselor s philosophy: " Do it well the fIrst time to avoid
problems later. " For those agencies which might have some interest in moving the
extended assessment in- house , Yuba County s experience deserves serious consideration.
                  EMPLOY ABILITY PLAN

                                                                              , affliated
Typical elements of the employability plan are an overall employment goal
                                                                             achieve the
education and/or job training goals, and any support services necessar to
designated goals. Each of the affiiated goals may have specific activities which the
participant must accomplish in a " satisfactory " manner as defined by the service provider.
Two other elements       results from any formal testing and results from parcipation in
one or more specialized service programs 13 Inarepractice
                                                    included if the employability plan is used
as a documentation device by the agency.                  , the employability plan was often
                                                                              agency, caring
regarded by agency staffs as an agreement between the paricipant and the
with it the possibility of sanctions (e. , a reduction of the AFDC grant) if the agreement is
not fulfilled (e. , because of nonparicipation).
                                                                                              Through
The Optimum Effectiveness of the Employability Plan Can Be Achieved
a "Reasonable Flexibility" Approach
A vast middle ground exists between the employability plan being extremely rigid and
extremely flexible. It seemed to us that an optimally effective plan allows the case
manager and the paricipant jointly to make changes if a course of action does not work.
Also, because discrete groups of AFDC recipients have distinctive needs, some paricipants
wil require more guidance and strcture during their tenure in the JOBS program, while

others wil require less. The case manager is the key to developing a plan which is

                                                                   assessing the parcipant's

 reasonably flexible " and financially feasible for the agency. In
current and potential employability, the case manager applies herlhs informed judgment to

shape (or reshape , if necessar) the plan to fit the needs of the paricipant.


 We found a parcipant's success in requesting changes in employabilty plan goals
 activities depended on the degree to which the local agency views the document as
                                                                               In Californa
 flexible, the conditions prompting the request and the timing of the request.
 for example , the paricipant could initiate a change withn 30 days after
                                                                          stang education
 or training activities; after 30 days the paricipant must experience          extenuating
                                                                                              In contrast
 circumstaces of consequence (e. , medical reasons) in order to alter the plan.
                                                                          modifications
 Nebraska s employability plan was a very flexible document. Reasonable
 and redirections could be incorporated at any time. 

                                                            Whle data were not collected which
 directly examne the association , we speculated that different ways of viewing and
 managing the plan may be related to economic conditions in the State or local region,
                                                                                     , thethe
 extent of available community resources, the extent of agency fiscal resources (e.
 poorer the economic conditions, the more rigid the plan), and/or the perceived nature of
                                                                        strctue, and thus a
 people in poverty (e. , people in poverty need a lot of guidance and
 more rigid employability plan).


  13 See APPENDIX   D for an example of the fonnat of an employability   plan used as a documentation device.
Rewards for Interim Successes Motivate Partcipants and Build Their           Confulence
A laudable practice mentioned by agency staffs was to build into the employability plan as
many successes and rewards as possible. The intended effect was to boost parcipants
self-esteem and motivation. Completion of a specialized service program , an ESL course
or an ABE (adult basic education) course were reasons for congratulations. Letters of
congratulation , tokens (e. , small medals or certificates) or informal gatherings were
vehicles to recognize these achievements. For more significant successes , such as earing
the GED or satisfactory completion of a series of vocational training courses or
assignments , some agencies held periodic formal ceremonies to which community
dignitaes were invited. These in- house and public observances served       s rewards and
further encouragement for JOBS paricipants and their case managers , and also had a
tremendous public relations value for the JOBS program.
                                    JOB           READINESS
 Job Readiness Is Determined By a Combination of Objective and Intuitive Factors
 Determning the "job          readiness   " of a parcipant is a process that combines objective
 factors and intuitive considerations. As the case manager monitored the paricipant's
 progress in JOBS education and training components , shelhe received faily regular oral
 and/or written reports from the service provider evaluating the paricipant's progress. 

                                                                                                              If a
 provider indicated progress was " not           satisfactory, "14 the case manager consulted with the
 paricipant and made adjustments             to the goals and activities specified in the employability
 plan. Otherwise ,the paricipant proceeded to complete the activities as specified in the
original plan. Thus , the most often mentioned objective indicator used by case managers
and supervisors to determne the participant's job readiness was " meeting the goals of the
employability plan " or , in other words , the satisfactory completion of courses and activities
in the education and training components designated in the plan.

 Yet , completing these activities was only a necessary- but-not-suffcient condition for
 success in finding employment. Other objective indicators reported by case managers and
 supervisors to judge job readiness were: the reduction in the number and severity of
barers (e. , child care, transporttion , substance abuse and other health problems);
meeting the minimum qualifications of chosen employers in terms of education, work
experience and current job skills; whether the parcipant's career choice was adequate to
support herlhis famly and reflects labor market availabilty; adequate job maturity skills;
learng job finding skills; and appearance (e. , appropriate clothes and
                                                                            groomig). More
intuitive factors mentioned by case managers and supervisors were the parcipant's
attitude toward work and maturity (i. , being positive, enthusiastic , self-confdent, reliable
and responsible), degree of wilingness or motivation to work, emotional stability, whether
the parcipant herselflhimself felt ready, and whether the case manager " sensed" the
parcipant was ready.


Checklists Assist Case Managers in Determining Job Readiness

Some agency staffs used a checklist during the assessment process to track the progress of
paricipants in reducing barers to employability and in acquirng job skills. These
instrments were used as assessment tools to help the case manager determe job
readiness. For example , the agency in Omaha , Nebraska, had a checklist comprised of
seven major categories with 3 to 18 items under each one which case managers used to
monitor progress and to determne job readiness.              15




14 An
         education provider , for example , usually defines " unsatisfactory " as a grade below C or a grade point

   average below 2. 00.

15 See
         APPENDIX E for this checklist.
APPENDIXES

                   , "                       , "                                   , "



                                                                                                    APPENDIX A



       LITERATURE SOURCES AND INTERVIEWS
 Data for the conceptual work on assessment were gathered from discussions with experts
 and a review of existing literature. The primary sources are:


 (I) Pre-research discussions with:

           Dr. Gerri Fiala , Office of Policy and Legislation
                                                              , Deparment of Labor
           Washington , D. C.;

          Ms. Lori Strumpf, Director of the Center for Remediation Design (a project of the
            S. Conference of Mayors , National Association of Private Industry Councils
          National Job Training Partnership, and the National Association of Counties),
          Washington , D. C.;

          Dr. Bertha King, Dr. Carroll Towey, Dr. Sarah Newcomb
                                                                  , Dr. James Parker , and
          Dr. Ron Pugsley, Office of Vocational and Adult Education
          Education , Washington , D. C.;                           , Deparment of

          Ms. Patricia Rickard , Director of the Comprehensive Adult Student Assessment
          System , San Diego , California;


(2) The following written sources:

   Auspon , Patricia and Kay Sherwood Assessin.Q JOBS
                                                      Participants: Issues and

   Tradeoffs , New York: Manpower Demonstration Research Corporation, 

   (forthcoming publication).                                            1992x


  Curnan , Susan P. and Gerard F. Fiala Assessing Employabilty for Results
  the National Governors ' Association , Washington                        " paper for
                                                    , D. , March 1986.
  Federal Re.Qister , October 13 , 1989 , Part II , DHHS/FSA
                                                               , 45 CPR Part 205
                                                                                         et seq..

  Goldman , Leo          Qualitative Assessment The Counselin.Q Psvcholo.Qist       vol. 18
  no. 2   , April 1990.

  Grubb , W. Norton , Cynthia Brown , Philip Kaufman
                                                       , and John Lederer
  Complexity: The Status of Coordination Among Vocational Education Order Amid
  Partnership Act , and Welfare- to- Work Programs                        , Job Training
                                                   " a paper for the U. S. Congress , the
  Secretar of Education , and the Secretar of Labor
                                                     , Januar 1990.
                  ),   , "    ,, ""




Gueron , Judith M., " Reformng Welfare with Work " occasional paper #2 , Ford
Foundation Project on Social Welfare and the American Future ,               1987.


Gueron , Judith M. Work- Welfare Programs " in H. S. Bloom , D. S. Cordray and RJ.
Light (eds. Lessons from Selected Program and Policy Areas , New Directions for
Program Evaluation (series), no. 37 , San Francisco: Jossey-Bass , 1988.

Healy, Charles c.                 Reformng Career Appraisals to Meet the Needs of Clients in the
1990s         The Counseling Psychologist , vol. 18, no. 2, April 1990.

Morrs , Robin , Lori Strmpf, and Susan Curnan, " Using Basic Skills Testing to
Improve the Effectiveness of Remediation in Employment and Training Programs for
Youth " a paper for the National Commssion for Employment Policy, RR- 88- , May
1988.

Strumpf, Lori  Assessment Parameters " one- page handout at the National Governors
Association Conference , Washington , D. C., Januar 1990.

Strmpf, Lori , Pamela Friedman , Patrcia Rickard , and Jane Equez, " Improving
Workplace Skills: Lessons from ITP A, " a white paper presented at the Sixth Annual
Conference of the Parership for Training and Employment Careers, Phoenix, Arzona,
April 1989.



United States General Accounting Office, 
            Job Training   Parership Act: Services and
Outcomes for Participants with Differing Needs ,             HR- 89- 52,   June 1989.


United States General Accounting Office Work and Welfare: Analysis of AFC
Employment Programs in Four States , HR- 88- 33FS, Januar 1988.

United States General Accounting Office Work and Welfare: CUITent AFDC Work
Programs and Implications for Federal Policy, HRD- 87- , Januar 1987.




                                                    A - 2

                                                                                       APPENDIX B




                        FORMAL & INFORMAL

                       TOOLS AND PRACTICES


Assessment is conceptualized broadly as the formal and informal evaluative processes
decisions and events occurrng from the paricipants ' entrance into the JOBS program to
herlhis exit from the program. Although the focus of this study is chiefly on activities
occurrng inside the welfare agency, this definition is inclusive of all evaluative activities
which occur in the welfare agency and in organizations which provide contracted services.

The judicious reliance on both types of assessment tools and practices forms the basis for
an effective assessment process in the agency. Formal assessment is any offcial (i.
endorsed by the agency in policy or procedures) tools (i. , devices used for
documentation) and practices (i. , patterned , recurrng events or routines), occurrng on a
regular basis , in which information is collected and used to make decisions about
paricipants , such as:

       offcial agency tools and practices involving     all or most JOBS participants,
          , the use of agency forms and/or data processing system (tools) to document
       paricipants ' current life circumstaces, work and educational histories, parcipants
       education and work training goals, etc. ; and ongoing practices like mandatory
       interviews with paricipants, maintenance of case notes, the management of the
       employability plan , labor market sorts;
       norm-referenced or criterion-referenced tests (tools) to describe and evaluate
       academic skill levels , work skill competencies , vocational interests, capabilties;
       offcial reports (practices) written by skilled evaluators and/or case managers on
       the performance and capabilities of JOBS parcipants; and
       any officially prescribed career research by parcipants.

Likewise , informal assessment includes unoffcial tools and practices, which mayor
may not occur on a regular basis , to collect information and to make decisions about
paricipants , such as:

       direct or reported observations of parcipants;

       conversations with paricipants;

       nonmandatory self-evaluations by parcipants ,      e.   , in the form of journals about

       their experiences in the JOBS program; and

       career research by parcipants.
                             AGENCY ASSESSMENT




                   TOOLS
                                                  PRACTICES

 FORMAL     Agency forms to document the
            paricipant' s circumstances        Interviews with Paricipant
            Norm-referenced (standardized)     Career research by paricipant

            and criterion-referenced tests    Labor market sorts

            Case notes                        Maintenance of case notes

           Employability Plan (EP)
           Maintenance of the EP

           Data processing system             Reports on parcipant's

           Job Readiness checklist            capabilties & performance


           Self-evaluation instrments
INFORMAL                                     Conversations
               , self-progress journal
                                             Observations
                                             Self-evaluation
                                             Career research
                                                                                                      APPENDIX C



            ELEMENTS OF EFFECTIVE ASSESSMENT



                                              GENERAL PRINCIPLES





16 Our
         interviews with Dr. Gerr Fiala ,   Deparent of Labor,
  Design , were instrmental in fonnulating this                 and Ms. Lori Strmpf, Center for Remediation
                                                   conceptual framework of assessment.


                                                     c - 1

POLICY GUIDELINES





    C - 2

ADMINSTRATIVE GUIDELINS





       C - 3

.:                               :.
                            . ...'"
                                 ...
                                 ..
                                 . '""/"."..
                                   ..
                                 . ". .   .
                                          ...' . .,. '
                                               .''
                                            ...-...
                                                ..""    .'..'....'....".,'."". . ~~~~" '. .
                                                     '.,.
                                                   ,. . .
                                                        .. -   . . ...''- ".."-. ... .". ...'".'"' '"". .".
                                                                             """ " ".   ., . ,.... ..., "
                                                                                              ". . "
                                                                                                   .        ..". ....:.
                                                                                                        ., .::      .." .,......  . . . .:.
                                                                                                                              "....
                                                                                                                                  .            . .. -.,...
                                                                                                                                          .. ".'"
                                                                                                                                         ...
                                                                                                                                         -.                  ().

                                                                                                                                                              "..




                                               STAFF GUIELINS




                    Effective . assesSme:ntispracticedbystatTmeniberswho:


. ar client -oriented , i.
          ID ways     attpt to acun YorP!lCipalS'
  and goals; 

                                                                                                                        "';inteSts
                           torparCiI'aItS' prO

                                                     gIS .giVingtiIYfe",back'
  eIfuge paiicipants'
 themaboutthe program; 

                                   :J.ftn1e1ftO tI 10BSPiUg.,md;(                                          cit'injJ

                 nua feedbak              iSI1PeS                                . H
. H_ . H_
                                                     oraboUfaisess;n"n        IICt




                                                    C - 4

                                                                                      APPENDIX D



           EMPLOY AB ILITY PLAN AS A DOCUMENT A TION DEVICE 



 Participant's Name:
Social Security # :

Case #:

Social Worker:

Date of Session:
Date of Exit:
Assessor:



                                      PARTICIPANTS BACKGROUND

Personal History:

Employment History:

Educational Background:




                                            EMPLOYMENT GOAL


Specific Occupational Goal:

General Occupational Goal:


Testing Results Which Support Assessment's Authorization of Employment Goal:
                              REQUIRED PARTICIPANTS
                              APTITUDES* SCORE**
  MATH LEVEL:

  LANGUAGE LEVEL:
(0 ACCORDING TO THE DEPARTMENT OF LABOR)
(00 AS MEASURED BY THE
                       APTICOM TESTING)




 17 This
           document is Yuba County s " GAIN Assessment Employment Development Plan.


                                                     D-
                       TESTING RESULTS SUMMARY (continued)

. CAPS: Career Ability Placement Survey

                                     STANINE SCORES - PRIMARY ABILITY SCORE

                        1. Mechanical Reasoning
                        2. Spatial Relations
                        3. Verbal Reasoning
                        4. Numerical Ability
                        5. Language Usage
                        6. Word Knowledge
                        7. Perceptual Speed and Accuracy
                        8. Manual Speed and Dexterity

                                 OCCUPATIONAL CLUSTER                PREDICTION
                                                                     OF SUCCESS
                        1. Science Professional
                       2. Science Skiled
                       3. Technology Professional
                       4. Technology Skiled
                       5. Consumer Economics
                       6. Outdoor
                       7. Business Professional
                       8. Business Skiled
                       9. Clerical
                       10. Communication
                       11. Art Professional
                       12. Art Skiled
                       13. Service Professional
                       14. Service Skiled




                 EMPLOYMENT OPPORTUNITIES RELATED TO GOAL

Goal to be Attained Upon Completion of Program:

Local Labor Market:



Approximate Period of Time Needed for Goal Achievement:


Resources Available to Obtain Training/Education for this Occupation:


                             R.O.

                             YUBA COLLEGE

                             PREP ASSIGNMENT

                             OJT

                             CET.

                             OTHER: ,





                                                    D - 3

                                  POTENTIAL OF PARTICIPANT TO ACHIEVE GOAL

    Assessment Supports this Participant's Employment Goal of:

    This Support is Justified by:
                                         TESTING RESULTS
                                         OTHER:




   of 
                                        BARRIERS TO ACHIEVING GOAL

   In order for this client to be successful in attaining employment in the occupation
                                    , as well as in obtaining training/education for this career
   barriers have been identified and need to be considered in order to develop strategies so, they
   removed and/or minimized.
                                                                                                 the following
                                                                                                      can be


   PERSONAL:

         child care                                 motivation/procrastination

        family responsibilties
                                                    personal counseling needs

         health                                     personal limitations

        housing problems                            self-confidence

        lack of family support                     substance abuse

        legal problems                             transporttion

        other:


  WORK WORLD:                                    EDUCA TION\TRAINING


        lack of occupationaV                             few academic skils\
        career information

                                                         remedial work may be necessary
        unrealistic view of work world                   other.

        limited work experience

        por work      attitude

        other:





                           SUPPORTIVE SERVICES NEEDED FOR ACHIEVING GOAL
                                    child care                               transporttion
                                    ancilary expenses                        persnal counseling
                                    tools                                    leaming disabilty
                                    clothing                                testing (if eligible)
                                    boks

                                    supplies                                other.





Prepared By:
                                                                        Date:
Reviewed By:
                                                                        Date:


                                                               D - 4

                                                                                                      APPENDIX E




   CHECKLIST FOR DETERMINING JOB READINESS


          Is this person job ready?

                   Has education or trning in field for which jobs are available
                   Is motivated to do job search
                   Has basic job search skills (e. , knows how to prepare resume
                                                                                , resume is written
                   knows how to obtan interviews , knows how to present self during  interview
                   Has adequate work experience; previous skills and knowledge transferable , etc.
                  Potential barers     such as child care ,     transportation, client health , can be successfully
                  managed

     Is this person s understanding of hisler own strengths and
     employment and/or education opportunities adequate?        weaknesses and knowledge of

                 Is able to describe job-related skills or interests
                 Is aware of hislher own strengths and weakesses
                 Is able to make decisions about education or training options based on
                 skills and interests                                                   awareness              of

                 Is able to identify job possibilities based on information about own
                 skills/kow ledge/interests
                 Has adequate information about either the current job market or educational
                 opportnities
                 Knows how to access either the job market or education/traing              resources

    Is this person a candidate for education or training?

                Has High School diploma or its equivalent

                Has skills required in labor market (skills are developed and current)

                Actual work experience is relevant to current job market





18 This
          document is from Omaha, Nebraska , entitled "
                                                          Job Support Assessment Tool.


                                                     E-
                                                                                           g.,




Is this person ready to participate in education or training?

        Is already motivated to obtain education/training
        Is currently enrolled and paricipating in education/training program
        Can identify type of education/training program most appropriate for self, e.
        university or college , community college , on- the-job training, correspondence course
        Barers such as child care , transporttion , financial aid for education costs , problems
        experienced by non- traditional students , etc. , can be successfully managed


Does this person have adequate personal resources?

        Is in good physical health
        Has adequate homemakng skills (e. , budgeting, nutrition , meal preparation
        sanitation)
        Has adequate parenting skills
        Has adequate social and communication skills
        Has adequate problem-solving abilities and personal resourcefulness (history of
        adequate coping)
        Free from drug/alcohol addictions

        Has normal intellgence (e. g., is not mentally retarded)

        Free from severe psychiatrc disability .

        Is coping with " famly development tasks " such as adjustment to parenthood, or single

        parenting, or aging, dependent parents , etc.

        Is able to read and write
        Is able to control temper
        Has realistic expectations of self and of self-as-worker
        Is wiling to work   toward change

        Has positive coping style (e. g., does not resort to denial, hostility, apathy)


Does this person have adequate family support/resources?

        Members are physically healthy
        Members have normal intellgence
        Members are free from drug or alcohol addiction
        Members are free from severe psychiatrc disabilty
        Conflct is resolved   without resortng to violence
        Members share responsibility for running household
        Adults (if more than one in home) share responsibility for raising children




                                           E - 2

       Expectations of each other are realistic and humane
       Are able to work together to solve problems
       Members coping with " famly development tasks " (e. , adjustment to new baby, or
       divorce , or child leaving home , or grandparent needs)
       Members support each other s efforts to change
       Adults (if more than one in home) share authority
       Roles are flexible (e. , disabled father wiling to run household while mother works
       outside home)
       Are able to use community resources appropriately (.       , family is neither isolated
       nor overly dependent)

       Members are law-abiding

Are physicaVcommunity reources adequate?


       Job opportunities
       Safe , affordable housing
       A vailable ,
                 affordable transporttion
       Adequate child care facilities/providers
       Counseling resources (menta health , drug/alcohol , vocationaljob, educational)
       Educational resources and opportnities

       Educational financial aid
       Parenting, budgeting, independent living classes and/or other teaching/support groups
       Medical and denta resources
       Recreational resources

       Crisis clinics and hot- lines
       Food and clothng pantres

       Emergency housing or shelter care

       Teaching homemakng services

       Legal services

       Special needs financial services (e. , utility deposit)

       Job training opportunities

       Community members work together to improve community services, etc.




                                          E - 3

